CREDIT CARD
APPLICATION
There are costs associated with the use of a credit card. Information about costs, rates and fees may be contained in disclosures provided with this
application or by calling us toll-free or collect at
or writing to us at the address stated on this application.
Check below to indicate the type of credit for which you are applying. Married Applicants may apply for a separate account.
Individual Credit: You must complete the Applicant section about yourself and the Other section about your spouse if
1. you live in or the property pledged as collateral is located in a community property state (AK, AZ, CA, ID, LA, NM, NV, TX, WA, WI)
2. your spouse will use the account, or
3. you are relying on your spouse's income as a basis for repayment. If you are relying on income from alimony, child support, or separate
maintenance, complete the Other section to the extent possible about the person on whose payments you are relying.
Joint Credit: Each Applicant must individually complete appropriate section below. If Co-Borrower is spouse of the Applicant, mark the Co-Applicant
box.
Credit Card Account:
Individual
Joint
If this is an application for joint credit, Applicant and Co-Applicant each agree and acknowledge the intent to apply for joint credit (sign below):
Applicant

Date

Co-Applicant

Date

X

(Seal)

X

(Seal)

If Authorized User, Name:

Credit Limit Requested $

Guarantors Complete OTHER section below.

APPLICANT

OTHER

NAME (Last - First - Initial)

NAME (Last - First - Initial)

CO-APPLICANT

SPOUSE

ACCOUNT NUMBER

SOCIAL SECURITY NUMBER

ACCOUNT NUMBER

SOCIAL SECURITY NUMBER

BIRTH DATE

EMAIL ADDRESS

BIRTH DATE

EMAIL ADDRESS

HOME PHONE

CELL PHONE

DRIVER’S LICENSE NUMBER/STATE

BUSINESS PHONE/EXT.
MOTHER’S MAIDEN NAME

PRESENT ADDRESS (Street – City – State – Zip)

HOME PHONE

CELL PHONE

DRIVER’S LICENSE NUMBER/STATE

OWN

RENT

BUSINESS PHONE/EXT.
MOTHER’S MAIDEN NAME

PRESENT ADDRESS (Street – City – State – Zip)

OWN

LENGTH AT RESIDENCE
PREVIOUS ADDRESS (Street – City – State – Zip)

OWN

RENT

PREVIOUS ADDRESS (Street – City – State – Zip)

OWN

MONTHLY PAYMENT

$

$

INTEREST RATE

%

COMPLETE FOR JOINT CREDIT, SECURED CREDIT OR IF YOU LIVE IN A COMMUNITY
PROPERTY STATE:
SEPARATED

EMPLOYMENT/INCOME
EMPLOYMENT STATUS

RENT

LENGTH AT RESIDENCE
MORTGAGE/RENT OWED TO

MORTGAGE BALANCE

MARRIED

RENT

LENGTH AT RESIDENCE

LENGTH AT RESIDENCE
MORTGAGE/RENT OWED TO

OTHER

GUARANTOR

FULL TIME

MORTGAGE BALANCE

MONTHLY PAYMENT

$

$

MARRIED

SEPARATED

EMPLOYMENT/INCOME

START DATE

%

COMPLETE FOR JOINT CREDIT, SECURED CREDIT OR IF YOU LIVE IN A COMMUNITY
PROPERTY STATE:

UNMARRIED (Single - Divorced - Widowed)

PART TIME

INTEREST RATE

EMPLOYMENT STATUS

FULL TIME

UNMARRIED (Single - Divorced - Widowed)
START DATE
PART TIME

NAME AND ADDRESS OF EMPLOYER

NAME AND ADDRESS OF EMPLOYER

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT
BE REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT
BE REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

EMPLOYMENT INCOME PER

OTHER INCOME

EMPLOYMENT INCOME PER

OTHER INCOME

$

$

$

$

TITLE/GRADE

SOURCE

TITLE/GRADE

SOURCE

PER

PER

PREVIOUS EMPLOYER NAME AND ADDRESS IF EMPLOYED LESS THAN FIVE YEARS

PREVIOUS EMPLOYER NAME AND ADDRESS IF EMPLOYED LESS THAN FIVE YEARS

STARTING DATE

STARTING DATE

© CUNA Mutual Group 2016 All Rights Reserved

ENDING DATE

ENDING DATE

02207364-AXX00-C-1-072617 (AXX001-E)

MILITARY: IS DUTY STATION TRANSFER EXPECTED DURING NEXT YEAR?
WHERE

YES

NO

ENDING/SEPARATION DATE

MILITARY: IS DUTY STATION TRANSFER EXPECTED DURING NEXT YEAR?
WHERE

YES

NO

ENDING/SEPARATION DATE

STATE LAW NOTICE(S)
Notice to Nebraska Residents: A credit agreement must be in writing to be enforceable under Nebraska law. To protect you and us from any
misunderstandings or disappointments, any contract, promise, undertaking, or offer to forebear repayment of money or to make any other financial
accommodation in connection with this loan of money or grant or extension of credit, or any amendment of, cancellation of, waiver of, or substitution for
any or all of the terms or provisions of any instrument or document executed in connection with this loan of money or grant or extension of credit, must
be in writing to be effective.
Notice to New York Residents: New York residents may contact the New York State Department of Financial Services to obtain a comparative listing
of credit card rates, fees, and grace periods. New York State Department of Financial Services: 1-800-342-3736 or www.dfs.ny.gov.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers,
and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers
compliance with this law.
Notice to Wisconsin Residents: (1) No provision of any marital property agreement, unilateral statement under Section 766.59, or court decree under
Section 766.70 will adversely affect the rights of the Credit Union unless the Credit Union is furnished a copy of the agreement, statement or decree, or
has actual knowledge of its terms, before the credit is granted or the account is opened. (2) Please sign if you are not applying for this account or loan
with your spouse. The credit being applied for, if granted, will be incurred in the interest of the marriage or family of the undersigned.
Signature for Wisconsin Residents Only

Date

X

(Seal)

CONSENSUAL SECURITY INTEREST
You grant us a security interest in all individual and joint share and/or deposit accounts you have with us now and in the future to secure
your credit card account. Shares and deposits in an IRA or any other account that would lose special tax treatment under state or federal law
if given as security are not subject to the security interest you have given in your shares and deposits. You may withdraw these other shares
unless you are in default. When you are in default, you authorize us to apply the balance in these accounts to any amounts due. For example,
if you have an unpaid credit card balance, you agree we may use funds in your account(s) to pay any or all of the unpaid balance.
By signing or otherwise authenticating below, you are affirmatively agreeing that you are aware that granting a security interest is a condition
for the credit card and you intend to grant a security interest. You acknowledge and agree that your pledge does not apply during any
periods when you are a covered borrower under the Military Lending Act. For clarity, you will not be deemed a covered borrower, and your
pledge will apply, if: (i) you become obligated on a credit transaction or establish an account for credit when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Security Interest Acknowledgement and Agreement

Date

Security Interest Acknowledgement and Agreement

Date

X

(Seal)

X

(Seal)

SIGNATURES
By signing or otherwise authenticating below:
1. You promise that everything you have stated in this application is correct to the best of your knowledge. If there are any important changes you will
notify us in writing immediately. You authorize the Credit Union to obtain credit reports in connection with this application for credit and for any
update, increase, renewal, extension, or collection of the credit received. You understand that the Credit Union will rely on the information in this
application and your credit report to make its decision. If you request, the Credit Union will tell you the name and address of any credit bureau from
which it received a credit report on you. It is a crime to willfully and deliberately provide incomplete or incorrect information in this application.
2. You understand that the use of your card will constitute acknowledgment of receipt and agreement to the terms of the Consumer Credit Card
Agreement and Disclosure.
Applicant’s Signature

Date

Other Signature

Date

X

(Seal)

X

(Seal)

02207364-AXX00-C-1-072617 (AXX001-E)

APPLICATION AND
SOLICITATION
DISCLOSURE
VISA

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Classic and Visa Secured

11.25%

This APR will vary with the market based on the Prime Rate.
Visa Platinum

7.25%

This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Visa Classic and Visa Secured
11.25%
This APR will vary with the market based on the Prime Rate.
Visa Platinum
7.25%

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Visa Classic and Visa Secured
11.25%
This APR will vary with the market based on the Prime Rate.
Visa Platinum
7.25%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

1.00% of each transaction in U.S. dollars
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02207364-MXC10-P-1-072617 (MXC101-E)

Effective Date:
The information about the costs of the card described in this application is accurate as of: March 26, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Classic and Visa Secured and Visa Platinum are secured credit cards. Credit
extended under this credit card account is secured by various personal property and money including, but not
limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for
this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Document Copy Fee:
None.
Rush Fee:
$30.00.
Statement Copy Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02207364-MXC10-P-1-072617 (MXC101-E)

